BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 unbound
copy and 40 bound copies of the foregoing Brief of
Human Rights Watch and Alianza Americas as Amici
Curiae in Support of Petitioners in 20-315, Jose Santos
Sanchez and Sonia Gonzalez v. Alejandro N.
Mayorkas, Secretary, United States Department of
Homeland Security, et al., were sent via Next Day
Service to the U.S. Supreme Court, and Next Dayemail service to the following parties listed below, this
1st day of March, 2021:
Jaime Winthuysen
8630 Fenton Street
Suite 925
Silver Spring, MD 20910
(301) 562-1416
jaime@aparisi.com

Counsel for Petitioners
Elizabeth B. Prelogar
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

Counsel for Respondents

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Rishi N. Zutshi
Counsel of Record
Lorena Michelen
Morgan A. Miller
Cleary Gottlieb Steen & Hamilton LLP
One Liberty Plaza
New York, New York 10006
(212) 225-2000
rzutshi@cgsh.com
Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on March 1, 2021.

Em ily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Date~~

c)yk ~ ~ ' .·

Notary Public
[seal]

